NO._____________

IN THE SUPREME COURT OF THE UNITED STATES
AARON JOSUE ACUNA-DUENAS, JULIAN BOCANEGRA LUPIAN,
AMETH GUTIERREZ-RODRIGUEZ, AGAPITO JARAMILLO VASQUEZ,
FRANCISCO LOPEZ-BARRON, GABRIEL ORTUNO-OLEA,
SERGIO MADRIZ SANDOVAL, ANTONIO DE JESUS VALDEZ ROJAS,
Petitioners,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit

CERTIFICATE OF SERVICE
KATHRYN SHEPHARD, appointed under the Criminal Justice Act, certifies that,
pursuant to Rule 29.5, she served the preceding Petition for Writ of Certiorari and the
accompanying Motion for Leave to Proceed In Forma Pauperis on counsel for the
Respondent (1) by mailing, on August 31, 2020, a copy of these documents (via firstclass United States mail, postage prepaid) to:
Solicitor General Noel Francisco
Room 5614, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530
and also (2) by sending, on August 31, 2020, the said documents via electronic mail to
the Office of the Solicitor General at the following e-mail address:
SupremeCtBriefs@USDOJ.gov. She certifies that all parties required to be served have
been served.

____________________________
KATHRYN SHEPHARD

